   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2008 AND 2007

     National Transportation Safety Board

        Report Number: QC-2009-007
       Date Issued: November 12, 2008
U.S. Department of                                              Office of Inspector General
Transportation                                                  Washington, DC 20590

Office of the Secretary
of Transportation




November 12, 2008

The Honorable Mark V. Rosenker
Acting Chairman
National Transportation Safety Board
490 L’Enfant Plaza SW
Washington, D.C. 20594

Dear Acting Chairman Rosenker:

The audit of the National Transportation Safety Board’s (NTSB) Financial
Statements, as of and for the years ended September 30, 2008, and
September 30, 2007, was completed by Leon Snead & Company, P.C., of
Rockville, Maryland (see Enclosure). We performed a quality control review of
the audit work to ensure that it complied with applicable standards. These
standards include the Chief Financial Officers Act; Accountability of Tax Dollars
Act of 2002; Generally Accepted Government Auditing Standards; and Office of
Management and Budget Bulletin 07-04, “Audit Requirements for Federal
Financial Statements,” as amended.

Snead & Company concluded that the financial statements presented fairly, in all
material respects, the financial position, net cost, changes in net position, and
budgetary resources of the NTSB as of and for the years ended
September 30, 2008, and September 30, 2007, in conformity with accounting
principles generally accepted in the United States. Snead & Company reported
one internal control material weakness, one significant deficiency, and no
instances of noncompliance with significant laws and regulations.

Material Weakness

    1. Controls over Financial Reporting Need Strengthening



Report Number QC-2009-007
                                                                                 2


Significant Deficiency

   1. Cost Accounting

Snead & Company made two recommendations to enhance controls over financial
reporting. We agree with the recommendations and, therefore, are not making any
additional recommendations. NTSB concurred with the material weakness and
significant deficiency, agreed with the recommendations, and committed to
implementing corrective actions.

In our opinion, the audit work performed by Snead & Company complied with
applicable standards.

We appreciate the cooperation and assistance of NTSB and Snead & Company
representatives. If we can answer questions or be of any further assistance, please
call me at (202) 366-1407 or Earl C. Hedges, Program Director, at
(410) 962-1729.


Sincerely,




Rebecca C. Leng
Assistant Inspector General for Financial and
 Information Technology Audits

Enclosure




Report Number QC-2009-007
